No. _ __
BRANDON KENDALE DUDLEY,
Petitioner,
v.

U NITED STATES OF AMERICA,
R esp ondent.

AFFIDAVIT
On this 9th day of June, 2021, I, Anthony G. Lantagne, h er eby certify that
this P etit ion for Writ of Certiorari was sent this sam e day via USPS Certified Mail
to the Suprem e Court of the United States. I further certify that I have served by
First Cl ass m ail and em ail this same date the required copies to the counsel of
record listed below:
Solicitor Gener al ofthe United S tates
Room 5616
Dep ar tmen t of Justice
950 Pennsylvania Avenue NW
Washingt on , DC 20530-0001
supremectbriefs@usdoj .gov
I declar e under pen alty of perjury th at the foregoing is true a nd correct.
Executed on this 9th day of June, 2021.

Lanta
e
nnting, Inc.
801 E . Main S tr eet , Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anth ony G. Lantagne appeared b efor e me this 9t h day of June, 202 , and attested
t hat t h e foregoing affid avit is true and exact t th est o ·
o 1 ge and belief.

